  DEPARTMENT OF HOMELAND SECURITY

        Office of Inspector General


     Review of DHS’ Progress in Adopting and
      Enforcing Equipment Standards for First
                   Responders




      Office of Inspections and Special Reviews

OIG-06-30                                March 2006
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared by our office as
part of our oversight responsibilities to promote economy, effectiveness, and efficiency within the
department.

This report examines DHS’ progress in adopting standards for first responder equipment. It is based
on interviews with employees and officials of relevant agencies and institutions, direct observations,
statistical analyses, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                              Richard L. Skinner
                                              Inspector General
Table of Contents


   Executive Summary .........................................................................................................................1

   Background ......................................................................................................................................3

   Results of Review ..........................................................................................................................10

           S&T Has Made Limited Progress in Adopting Standards for Equipment and
           Communication Interoperability...........................................................................................11
           DHS Needs to Ensure First Responder Compliance with S&T Equipment Standards ........20
           S&T Has Established a Centralized Process to Adopt Equipment Standards ......................26

   Management Comments and OIG Analysis ..................................................................................30

Tables

   Table 1:        Universe of First Responder Equipment Standards in the
                   Homeland Security Standards Database ......................................................................13
   Table 2:        S&T Funds Provided to External Organizations, FY 2003 – FY 2005 .......................30

Diagrams

   Diagram 1:             S&T Organizational Structure for Adopting Equipment Standards.......................4

Appendices

   Appendix A:            Purpose, Scope, and Methodology .......................................................................37
   Appendix B:            Management Response to Draft Report ...............................................................39
   Appendix C:            Major Contributors to this Report ........................................................................47
   Appendix D:            Equipment Standards Adopted by S&T ...............................................................48
   Appendix E:            Report Distribution...............................................................................................51




                             Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                               Responders
Abbreviations

AEL         Authorized Equipment List
ANSI        American National Standards Institute
DHS         Department of Homeland Security
FY          Fiscal Year
HSA         Homeland Security Act of 2002
HSGP        Homeland Security Grant Program
HSSD        Homeland Security Standards Database
IAB         InterAgency Board for Equipment Standardization and Inter Operability
IEEE        Institute of Electrical & Electronics Engineers
NFPA        National Fire Protection Association
NIOSH       National Institute for Occupational Safety and Health
NIST        National Institute of Standards and Technology
ODP         Office of Domestic Preparedness
OIG         Office of Inspector General
OMB         Office of Management and Budget
P.L.        Public Law
PPR         Office of Programs, Plans, and Requirements
SDO         Standards Development Organization
SED         Systems Engineering and Development
SEL         Standardized Equipment List
SLGCP       Office of State and Local Government Coordination and Preparedness
SSAWG       Standards Subject Area Working Group
S&T         Science and Technology Directorate
U.S.C.      United States Code




                  Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                    Responders
OIG
Department of Homeland Security
Office of Inspector General


Executive Summary
                            The Homeland Security Act of 2002 (HSA) established the Science &
                            Technology directorate (S&T) as the primary research and development
                            component for the Department of Homeland Security (DHS).1 S&T is
                            responsible for providing the first responder community, including state and
                            local governments, with the technological capabilities to effectively respond
                            to terrorist attacks, natural disasters, and other catastrophic events. To
                            accomplish its mission, S&T adopts standards for equipment used by first
                            responders.2

                            Adopting centralized, uniform standards for equipment assists first responders
                            in procuring and using equipment that is safe, effective, and compatible.
                            Standardizing communications equipment provides firefighters, police, and
                            other emergency personnel with the ability to communicate better and
                            coordinate their efforts during crisis situations using devices that conform to
                            specifications that promote interoperability.3

                            We assessed S&T’s progress in adopting standards for equipment and
                            communication interoperability for first responders. Our review examined
                            S&T operations and performance in fulfilling these efforts by assessing (1)
                            coordination with other DHS components to ensure dissemination and
                            awareness of adopted equipment standards; (2) the number and types of
                            adopted standards related to first responder equipment and communication
                            interoperability; and, (3) the procedures with which DHS ensures first
                            responder compliance with S&T equipment standards.


1
  Public Law (P.L.) 107-296.
2
  First responders, also known as “emergency response providers,” are those individuals responsible for the protection
and preservation of life, property, evidence, and the environment in the early stages of a terrorist attack, natural disaster,
or other large-scale emergency. Emergency response providers include “Federal, State, and local emergency public
safety, law enforcement, emergency response, [and] emergency medical (including hospital emergency facilities)
personnel…” (United States Code (U.S.C.), Title 6, Section 101(6).)
3
  “Communication interoperability” is the ability of first responder agencies to use communications systems, such as
radios, mobile and landline telephones, and computers, to securely communicate with one another across disciplines and
jurisdictions. Communication includes exchanging voice and data transmissions on demand, in real time, and using
compatible equipment.

                             Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                               Responders

                                                                  Page 1
DHS has appropriately centralized the standards adoption process within
S&T, and has effectively partnered with Standards Development
Organizations (SDOs) and other external organizations to fulfill its standards
adoption mission. However, S&T relies heavily on these external
organizations because it has no authority to implement a more scientific and
broadly applicable process for developing standards.

Overall, S&T has made some progress in adopting standards for equipment
and communication interoperability, adopting 12 standards. However, those
standards do not include any relating to interoperability or decontamination.
The standards S&T has adopted are for personal protective and detection
equipment. No new equipment standards have been adopted since February
2004. In addition, S&T standards infrequently apply to equipment items that
DHS designates as eligible for purchase by first responders. Therefore, S&T
cannot ensure that first responders consistently purchase equipment that
complies with its standards.

We have identified four issues that affect S&T’s ability to adopt and enforce
equipment standards. S&T:

● Does not accurately track the status of standards being considered for
  adoption,

● Has inadequate performance measures to establish timelines for
  completion of its standards adoption process,

● Has no regulatory authority to compel first responders to purchase
  equipment that conforms to S&T standards. Therefore, it must rely on
  DHS’ Office for Domestic Preparedness (ODP) to ensure, through
  management activities related to ODP’s grants, that first responders
  procure equipment that conforms to S&T-adopted standards, and

● Is not consistently advising ODP on which categories of equipment
  conform to its standards.

To improve the process for adopting and ensuring compliance with equipment
and communication interoperability standards for first responders, we are
making four recommendations to the Under Secretary for Science and
Technology to (1) ensure that the S&T standards database accurately captures
all relevant data necessary for tracking the status of standards being
considered for adoption; (2) determine methods by which the time required to
adopt standards can be accelerated; (3) establish quantifiable performance
measures to achieve more timely adoption of standards; and, (4) evaluate the
DHS-sponsored equipment listings so that they conform to currently

Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                  Responders

                                    Page 2
                            applicable S&T standards. Two recommendations are directed for the action
                            of the Under Secretary for Preparedness, to (1) reference DHS informational
                            resources for equipment in all ODP grant guidance disseminated to first
                            responder recipients and (2) mandate that all equipment purchased by first
                            responders, using ODP grant funds, complies with corresponding standards
                            adopted by S&T.


Background
                            The events of September 11, 2001, and more recently Hurricane Katrina,
                            demonstrate the need for first responders to communicate across various
                            disciplines and jurisdictions. It is crucial for the first responder community to
                            be properly equipped with the most effective protective gear in order to
                            respond to all hazard events. Further, in emergency situations, first
                            responders offer the greatest potential to save lives.

                            The HSA created a national approach for protecting the homeland against
                            potential terrorist attacks and other disasters. Pursuant to the HSA, DHS was
                            assigned the foremost responsibility, using a full range of governmental and
                            private partnerships, for minimizing damage and assisting in the recovery
                            from disasters that occur within the United States.

                            Within DHS, S&T is the principal research and development component.
                            S&T’s mission is to organize the scientific and technological resources of the
                            United States to prevent or mitigate the effects of terrorist attacks and natural
                            disasters. S&T is to improve the technology and capabilities available to first
                            responders through the adoption and dissemination of standards for
                            equipment.4 It fulfills its mission through its four components: the Office of
                            Programs, Plans, and Requirements (PPR); the Office of Research and
                            Development; the Homeland Security Advanced Research Projects Agency;
                            and, the Office of Systems Engineering and Development (SED). PPR and
                            SED are the offices that have primary responsibility for researching and
                            adopting relevant standards for first responders.

                            Equipment Standards

                            PPR is responsible for adopting personal protective, detection,
                            decontamination, and communication interoperability equipment standards for
                            first responders. Specifically, PPR can adopt equipment standards for items
                            such as respirators, protective body suits, footwear, gloves, personal alarm


4
    Homeland Security Presidential Directive-8, “National Preparedness,” December 17, 2003.

                            Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                              Responders

                                                                Page 3
                             detectors, personal decontamination kits, spill containment devices, and
                             portable and mobile radios.

                             PPR is composed of 13 suborganizations called portfolios, one of which is the
                             Standards Portfolio.5 The Standards Portfolio coordinates the development
                             and adoption of equipment standards and appropriate evaluation methods to
                             meet DHS and first responder needs. The Standards Portfolio Manager is
                             responsible for setting priorities and timeframes for the research and adoption
                             of first responder equipment standards.

                             The Standards Portfolio is divided into four “thrust areas,” which are further
                             divided into 19 Standards Subject Area Working Groups (SSAWGs). The
                             SSAWGs are comprised of teams of experts and stakeholders that review and
                             deliberate over standards in specific technical areas. Ten SSAWGs are
                             relevant to emergency responder equipment and communication
                             interoperability standards. The following organizational diagram outlines
                             S&T’s pertinent elements, including the ten SSAWGs under the two relevant
                             thrust areas, which are involved in adopting equipment standards.

                             Diagram 1: S&T Organizational Structure for Adopting Equipment Standards

                                                               Science & Technology Directorate (S&T)



                                                                Progra ms, Plans & Require ments (PPR)



                                                                          Standards Portfolio -
                                                                         1 of 13 PPR Port folios



                                                                         Standards Executive –
                                                                      Standards Portfolio Manager



                                       Threats                 Eme rgency Preparedness                Borders &       Information Analysis
                                 Thrust Area (and 4           And Response Thrust Area              Trans portation     And Infrastructure
                                 Relevant SSAW Gs)            (and 6 relevant SSAW Gs)               Thrust Area      Protection Thrust Area




                                Che mica l Countermeasures       Incident Management
                                          SSAW G                       SSAW G



                                Bio logical Countermeasures
                                                               Co mmunications SSAW G
                                           SSAW G


                                 Radiologica l & Nuclea r        Personal Protective
                                Countermeasures SSAW G           Equip ment SSAW G


                                   High Exp losives
                                                                  Train ing SSAW G
                                Countermeasures SSAW G


                                                               Urban Sea rch and Rescue
                                                                   Robots SSAWG


                                                                Geospatial Information
                                                                 Standards SSAWG


5
    S&T restructured the directorate on July 11, 2005, including the formation of the 13 PPR Portfolios.

                              Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                                Responders

                                                                         Page 4
                            The Standards Portfolio Manager and the SSAWGs identify homeland
                            security needs for federal, state, and local government agencies, examine
                            proposed standards, and make recommendations with respect to the adoption
                            of standards by S&T.6 The manager oversees the SSAWGs and all standards-
                            related activities internal to S&T. The manager also serves as DHS’
                            Standards Executive and is primarily responsible for promoting the
                            development of appropriate DHS positions on standards; ensuring that DHS
                            participation is consistent with the agency’s mission, authority, goals, and
                            budget; assuring that internal policies are established for managing the
                            adoption of standards by DHS; developing processes for ongoing review and
                            update of standards; and, instituting processes to ensure that organizational
                            participation is properly reviewed for compliance with applicable law.7

                            Communication Interoperability

                            SED oversees the review and research, but not adoption, of standards for
                            communication interoperability that apply to first responders. SED provides
                            strategic advice to first responders in acquiring communications equipment
                            that allows numerous jurisdictions and disciplines to maintain contact with
                            one another when responding to terrorist attacks or other incidents.

                            The Intelligence Reform and Terrorism Prevention Act of 2004 requires that
                            certain agencies, including DHS, accelerate the development of voluntary
                            consensus standards for public safety interoperable communications.8 In an
                            effort to achieve this goal, the Office for Interoperability and Compatibility
                            was established in SED to strengthen federal, state, and local partnerships to
                            achieve interoperability for emergency preparedness and response. Launched
                            on October 1, 2004, it provides a single resource for information about
                            interoperability issues for first responders, including communications,
                            equipment, and training.

                            Specifically, the Office for Interoperability and Compatibility is (1)
                            establishing a comprehensive research, development, testing, and evaluation
                            program for improving public safety interoperability; (2) identifying DHS
                            programs that entail interoperability; (3) integrating grant guidance across all
                            DHS grantmaking agencies that involve public safety interoperability; (4)
                            facilitating the development and implementation of technical assistance for
6
  Each SSAWG consists of a working group chair; S&T principals; DHS components with direct interest, such as ODP;
the National Institute of Standards and Technology; other federal, state, and local entities; and, private sector, university,
and trade association representatives.
7
  The heads of federal agencies that have a significant interest in the use of standards are to designate a senior level
official to oversee the agencies’ use of voluntary consensus standards, which is discussed later in this section. (“Federal
Participation in the Development and Use of Voluntary Consensus Standards and in Conformity Assessment Activities,”
Circular No. A-119, Office of Management and Budget, February 10, 1998.)
8
  P.L. 108-458.

                             Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                               Responders

                                                                 Page 5
                         public safety interoperability; (5) creating an interagency interoperability
                         coordination council; and, (6) coordinating with DHS’ National Incident
                         Management System Integration Center.

                         In early 2002, the Office of Management and Budget (OMB) established the
                         Wireless Public Safety Interoperable Communications Program, commonly
                         referred to as SAFECOM.9 SAFECOM is a federal program that assists
                         federal, state, and local public safety agencies in identifying wireless
                         interoperable communications requirements and ensures those entities can
                         communicate and share information to effectively respond to emergency
                         incidents. The Office for Interoperability and Compatibility oversees
                         SAFECOM. In March 2004, SAFECOM issued the first national Statement
                         of Requirements, which broadly defined communication requirements
                         necessary to achieve nationwide interoperability for first responders. The
                         Statement of Requirements will assist in the identification and development of
                         industry standards, such as those developed by SDOs, against which product
                         capabilities could be compared.

                         Standards Development Organizations

                         The National Technology Transfer and Advancement Act of 199510 directs
                         government agencies to achieve greater reliance on voluntary consensus
                         standards developed by SDOs.11 SDOs are public and private organizations
                         that develop standards and test protocols for equipment that is used in a
                         variety of capacities, including by first responders. This Act further directs
                         federal agencies, such as DHS, to participate in the activities of SDOs so that
                         these organizations are consistently aware of DHS’ position on standards and
                         to consider that position in developing standards. This provision is intended
                         to ensure that standards developed by SDOs are appropriate for use by federal
                         agencies.12

                         OMB Circular A-119 promulgated policies on federal use and development of
                         voluntary consensus standards and requires the activities of federal agencies
                         that relate to the use of SDO standards be reported annually to the National


9
  SAFECOM was originally an office within the Department of Justice but was transferred to DHS in 2003.
10
   P.L. 104-113.
11
   “Voluntary consensus standards" are standards developed by SDOs that seek to eliminate the cost to the U.S.
government of developing its own standards and to serve national needs. The standards are the result of general
agreement within SDOs and include a process for attempting to resolve objections by interested parties. Voluntary
consensus standards are distinct from "Government-unique standards," which are developed by the U.S. government for
its own uses.
12
   The National Technology Transfer and Advancement Act and OMB Circular A-119 authorize agencies to use
standards, other than voluntary consensus standards, when such standards are “inconsistent with applicable law” or
“otherwise impractical.”

                          Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                            Responders

                                                              Page 6
                           Institute of Standards and Technology (NIST).13 In Fiscal Year (FY) 2004,
                           DHS reported that ten employees participated in SDO standards activities and
                           that it was involved in the standards development activities of the following
                           SDOs:

                               •    American Society for Testing and Materials
                               •    Association of Analytical Chemists International
                               •    International Committee for Information Technology Standards
                               •    Institute of Electrical and Electronic Engineers
                               •    International Organization for Standardization/International
                                    Electrotechnical Commission
                               •    National Fire Protection Association
                               •    National Institute for Occupational Safety and Health

                           Overview of S&T Standards Adoption

                           Between August and December 2004, S&T implemented three management
                           directives to formalize its standards adoption process.14 The directives
                           enumerate the process by which S&T reviews and adopts standards; the
                           organizational framework for the SSAWGs; the method for coordinating with
                           other DHS components that had standards programs; and, the procedures for
                           working with other federal, state, and local governments, and the private
                           sector, to facilitate broad participation in standards development and adoption.
                           The directives promote DHS-wide and interagency cooperation and consensus
                           in the adoption of first responder equipment and communication
                           interoperability standards.

                           The standards adoption process initially involves a review of the proposed
                           standard by the Standards Coordinator for PPR to determine its suitability for
                           adoption as a DHS national standard.15 If accepted by the coordinator, the
                           proposed standard is forwarded to the Standards Subject Area Expert, who
                           determines whether it can be adopted without submission to the SSAWGs.16
                           If it is decided that the proposed standard should be adopted but requires
                           evaluation by the SSAWGs, it is submitted to the relevant SSAWGs. After
13
   NIST facilitates the development of national standards that establish minimum performance requirements for essential
equipment designed to protect first responders against chemical, biological, radiological, nuclear, and explosive hazards.
14
   “Adoption of Department of Homeland Security (DHS) National Standards,” Management Directive 10600.1, August
3, 2004; “Adoption of DHS Directorate Standards As Department of Homeland Security (DHS) National Standards,”
Management Directive 10601, September 23, 2004; and, “Homeland Security Standards Subject Area Working Groups
(SSAWGs),” Management Directive 10602, December 20, 2004.
15
   “DHS national standards” are defined as standards adopted by DHS to assist federal, state, and local officials, and
manufacturers in making procurement and regulatory decisions regarding equipment and processes related to homeland
security, especially equipment for the nation’s first responders.
16
   Should the Standards Coordinator reject the proposed standard, the decision and reason for rejection are noted and
transmitted back to the submitting entity.

                            Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                              Responders

                                                                Page 7
                          the SSAWGs reach consensus on the adoption of the proposed standard, a
                          Standards Acceptance Package is forwarded to the Standards Portfolio
                          Manager, who forwards the completed package to S&T’s Director of PPR for
                          approval.

                          S&T officials said that S&T is able to adopt standards applicable to first
                          responders, but cannot develop standards on its own because it has no
                          authority to regulate the first responder community. The process can include
                          the specification of performance requirements or designs, and methods for
                          measuring product quality. A federal agency has to have explicit statutory
                          authority to develop standards. However, S&T is not precluded from working
                          with SDOs to develop, adopt, and publicize equipment standards.

                          There are various provisions of the HSA that discuss standard setting
                          activities, but those authorities are narrow and do not apply to S&T.17 DHS,
                          through S&T, may issue regulations with respect to “research, development,
                          demonstration, testing, and evaluation activities.”18 Nevertheless, S&T only
                          has the authority to adopt equipment standards for first responders that were
                          developed by external organizations, including SDOs.

                          DHS Grants for First Responder Equipment

                          ODP distributes federal grants to protect against threats posed by terrorism
                          involving chemical, biological, radiological, nuclear, and explosive agents.19
                          ODP distributes these grants to states, select metropolitan areas, firefighters,
                          ports, and transit authorities first responders. In October 2004, Congress
                          appropriated $3.7 billion to ODP, of which $3.3 billion (or 89%) was
                          earmarked for the purchase of first responder equipment.20

                          In the first responder grant process, the governor of each state is to designate a
                          State Administrative Agency, which is the only agency eligible to apply for
                          ODP’s HSGP funds.21 The State Administrative Agency is responsible for
                          obligating those funds to the state’s local units of government and other
                          designated recipients. ODP officials said the State Administrative Agencies
                          receive DHS funds and are responsible for dispersing those funds to state

17
   Section 313 of the HSA states that: “Nothing in this section shall be construed as authorizing the Secretary or the
technical assistance team established under subsection (b)(3) to set standards for technology to be used by the
Department, any other executive agency, any State or local government entity, or any private sector entity.” (6 U.S.C. §
313(c)(1).)
18
   6 U.S.C. § 186(c).
19
   SLGCP was transferred to the Preparedness directorate and was renamed the Office of Grants and Training in
November 2005.
20
   P.L. 108-334, Title III.
21
   Fiscal Year 2005 Homeland Security Grant Program, Department of Homeland Security, Office of State and Local
Government Coordination and Preparedness, Office for Domestic Preparedness, Version 2.0, December 22, 2004, p. 1.

                           Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                             Responders

                                                               Page 8
                          agencies and localities, including first responders. These agencies are also
                          responsible for disseminating applicable equipment standards to first
                          responders within their jurisdiction and for ensuring that their first responders
                          only purchase equipment from the AEL using applicable grant funds.

                          In FY 2005, ODP consolidated the administration and application process for
                          six of its grant programs, for which first responders were eligible, into one
                          streamlined grant process.22 The new Homeland Security Grant Program
                          (HSGP) combined the following programs:

                                   •   State Homeland Security Grant Program
                                   •   Urban Area Security Initiative
                                   •   Law Enforcement Terrorism Prevention Program
                                   •   Citizen Corps Program
                                   •   Emergency Management Performance Grants
                                   •   Metropolitan Medical Response System

                          In FY 2005, ODP awarded $2.5 billion to states and urban areas under this
                          consolidated program.

                          In addition to the HSGP, ODP also administers the Assistance to Firefighters
                          Grant Program, which provides direct funding to local fire departments and is
                          another grant program that distributes funds for first responder equipment,
                          such as firefighting equipment and protective gear. In FY 2005, $715 million
                          was appropriated for the program and ODP awarded 3,245 grants to fire
                          departments and eligible private and public nonprofit organizations that
                          totaled approximately $337 million.23

                          Authorized Equipment List

                          ODP publishes, manages, and maintains the Authorized Equipment List
                          (AEL) to assist federal, state, and local public safety organizations identify
                          and procure appropriate personal protective and communications equipment.24
                          The AEL offers information to first responders on topics such as available
                          equipment and technologies, the standards to which the equipment was

22
   In a June 2004 report submitted through the Homeland Security Advisory Council, the DHS Task Force on State and
Local Homeland Security Funding recommended that the grant application process be streamlined by consolidating the
six grant programs to form the FY 2005 Homeland Security Grant Program to, in part, “strengthen the coordination
across the various programs and encourage[s] regional preparedness efforts.”
23
   Data provided by the Office for Domestic Preparedness, Department of Homeland Security, September 9, 2005.
24
   Allowable equipment is equipment that is appropriate for purchase under the mandates of applicable grant programs.
Fiscal Year 2005 Authorized Equipment List, Responder Knowledge Base, Office for Domestic Preparedness and
National Memorial Institute for the Prevention of Terrorism, July 18, 2005. We discuss the applicable grant programs
and their relationship to the AEL later.

                           Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                             Responders

                                                               Page 9
                           certified, and agencies that use the equipment. The list is electronically
                           accessible via the Responder Knowledge Base, which is a free internet
                           resource jointly operated by ODP and the National Memorial Institute for the
                           Prevention of Terrorism.

                           A cross-section of officials representing DHS, the Departments of Justice,
                           Health and Human Services (Public Health Service), Energy, and state and
                           local chemical, biological, radiological, nuclear, and explosive response
                           experts assist ODP in maintaining the AEL and in identifying unallowable
                           items that first responders should not purchase.

                           The AEL is composed of 21 sections that list different types of homeland
                           security-related equipment that can be purchased by first responders, such as
                           personal protective equipment. Four sections or equipment categories of the
                           AEL, personal protective, interoperable communications, detection, and
                           decontamination, correspond to those categories for which S&T is responsible
                           for adopting equipment standards. The AEL specifies each item’s unique
                           identifier number; the permissibility of purchasing the item using funds from
                           any DHS grant program; the name and a brief description of the item; and, a
                           corresponding reference number to the item as listed on the companion
                           Standardized Equipment List (SEL), where applicable. The SEL is a general
                           list of first responder equipment developed by the InterAgency Board for
                           Equipment Standardization and Inter Operability (IAB).25 The list is also
                           electronically accessible via the Responder Knowledge Base.

                           Unlike the AEL, the SEL is more advisory and its use by first responders is
                           voluntary. The SEL’s 11 equipment sections are equivalent to the first 11
                           sections of the AEL. While the SEL provides similar information on
                           individual equipment items, it contains more items within each section and
                           items that do not have to conform to S&T-adopted standards. Therefore,
                           buying first responder equipment listed on the SEL does not guarantee that the
                           items comply with S&T standards.


Results of Review
                           S&T has made limited progress in adopting standards for equipment and
                           communication interoperability and its standards apply to a small percentage
                           of the equipment items listed by DHS as eligible for purchase by first

25
   The IAB working group is a quasi-governmental organization supported by voluntary participation from various
federal, state, and local government entities, as well as private organizations. IAB’s mission is to coordinate
standardization, interoperability, and responder safety to address any incident by identifying requirements for chemical,
biological, radiological, nuclear, and explosive “incident response equipment.” The IAB coordinates these entities by
identifying and standardizing requirements for incident response equipment.

                            Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                              Responders

                                                               Page 10
                          responders. It also has no regulatory authority to enforce first responder
                          adherence to S&T standards and must rely on ODP to ensure that first
                          responders procure equipment that conforms to S&T-adopted standards.


                 S&T Has Made Limited Progress in Adopting Standards for
                 Equipment and Communication Interoperability
                          Equipment priorities for the first responder community vary, from items such
                          as protective suits, radiation and nuclear personal detectors, and interoperable
                          communications, to lesser priority items, such as hose couplings. DHS
                          standards reflect these priorities. However, S&T has only adopted 12
                          standards for personal protective and detection equipment, and has not
                          adopted any standards for communication interoperability or decontamination
                          equipment. SDOs have developed many equipment standards that are eligible
                          for adoption, but no new equipment standards have been adopted by S&T
                          since February 2004.

                          S&T’s limited progress is attributed to a variety of factors. For example, the
                          12 standards adopted by S&T reflect the priorities expressed by first
                          responders for personal protective and detection equipment. An S&T official
                          stated that it initially wanted to adopt national standards for this area because
                          standards for equipment responsive to weapons of mass destruction were not
                          prioritized by DHS’ legacy agencies. In addition, law and policy dictate that
                          S&T must rely on external organizations to conduct scientific research in
                          developing standards.26 Voluntary consensus standards require that affected
                          stakeholders review the standards under consideration for adoption, which can
                          be time-consuming. In addition, S&T does not adopt standards that are
                          undergoing revision by SDOs or relating to equipment already covered by
                          certain grant programs.

                          Adopting Equipment Standards

                          Homeland Security Presidential Directive-8 directs DHS to establish and
                          implement procedures for developing and adopting first responder equipment
                          standards that support a national preparedness capability. To achieve this
                          objective, S&T coordinates with various federal partners, such as NIST, and
                          external organizations such as SDOs, to facilitate and manage standards
                          development activities that must occur outside of DHS.



26
  Various legislation and regulations govern this responsibility, including the HSA, the National Technology Transfer
and Advancement Act, the Intelligence Reform and Terrorism Prevention Act, and OMB Circular A-119.

                           Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                             Responders

                                                              Page 11
                          S&T’s three management directives prescribe DHS’ formal process for
                          adopting standards. These processes include the establishment of the
                          SSAWGs; intra-agency coordination among DHS components; and, DHS’
                          partnerships with other federal, state, and local governments, as well as with
                          SDOs. The directives also refer to the DHS National Standards Database,
                          which “will be used to track standards through the development process, [and]
                          maintain information on active standards…”

                          The SSAWGs must review the SDO-developed standards and then request
                          modifications by the SDO, if necessary, so that the standards conform to
                          current needs and requirements of first responders. Despite the availability of
                          standards already developed by SDOs, S&T cannot unilaterally approve
                          standards developed by SDOs because each standard must be reviewed for
                          applicability and relevancy to DHS-specific needs.

                          In February 2004, DHS contracted with the American National Standards
                          Institute (ANSI) to develop the Homeland Security Standards Database
                          (HSSD). The database allows users, such as S&T and SDOs, to search for
                          and retrieve all published U.S. and international standards, as well as draft
                          standards under development by SDOs that are relevant to first responder
                          equipment. According to an ANSI official, the database was completed and
                          operational on June 1, 2005.

                          As indicated in Table 1, S&T has only adopted 12 of 81 (or 15%)27 of the
                          universe of relevant equipment standards that were developed by SDOs.28
                          This is a small percentage compared to the universe of existing and relevant
                          equipment standards that can be considered by S&T for adoption.




27
   See Appendix D for a list of the 12 standards adopted by S&T, as of March 2006.
28
   Standards in the HSSD that were already developed by ANSI-accredited SDOs, and have an American National
Standards designation, were incorporated into this universe of standards. The exception is the inclusion of the three
National Institute for Occupational Safety and Health standards adopted by DHS, which did not have the American
National Standards designation. International standards, standards already developed by non-ANSI-accredited SDOs, or
standards currently under development, were not clearly identified in the HSSD and therefore were not included in this
analysis.

                           Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                             Responders

                                                              Page 12
                          Table 1: Universe of First Responder Equipment Standards in the Homeland
                          Security Standards Database29

                                                  Personal
                                                  Protective Detection Decontamination Communications Total
                                                  Equipment
                          Universe of American         47          25              0                   9         81
                          National Standards
                          DHS Adopted
                                                        8           4              0                   0         12
                          Standards
                          Percentage of
                          Standards Adopted
                          from American               17%         16%             0%                  0%       15%
                          National Standards
                          Universe

                          Standards Data is Not Consistently Captured

                          The HSSD does not consistently capture information about the status of
                          standards, such as whether they are active, pending, or rejected, or when the
                          SDO approved the standard. In addition, it may not report the status of the
                          standard if it is an international standard or is under development by an SDO.
                          An S&T official noted this database is a “work in progress” and indicated that
                          S&T intends to assign the SSAWGs responsibility for the quality and validity
                          of standards information in the database.

                          A universe of 81 standards developed by various SDOs is contained within the
                          HSSD. These standards pertain to personal protective equipment, detection,
                          and communications. For example, the database lists 47 personal protective
                          equipment standards developed by six different SDOs.30 The National Fire
                          Protection Association (NFPA) developed 27 of these standards, five of which
                          were adopted by S&T. The National Institute for Occupational Safety and
                          Health (NIOSH) developed three of the personal protective equipment
                          standards, all of which were adopted by S&T. For detection standards, the
                          database lists 25 standards developed by three SDOs. Of that number, the
                          Institute of Electrical and Electronics Engineers (IEEE) developed the four

29
   Personal protective equipment standards include the following categories: personal protective equipment and urban
search and rescue robots. Detection standards include the following categories: biological threats - detection and
prevention; chemical threats - detection and prevention; and, radiological and nuclear - detection and prevention.
Decontamination standards are represented by the chemical threats – decontamination category. All standards included
in this analysis of the HSSD, with the exception of the three National Institute for Occupational Safety and Health
standards, have an American National Standards designation. In addition, Communications standards do not include
standards currently under consideration by SAFECOM.
30
   Five are ANSI-accredited SDOs, including the National Fire Protection Association. The other organization, the
National Institute for Occupational Safety and Health, which is a federal agency that is a component of the Department
of Health and Human Services, is not ANSI-accredited.

                           Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                             Responders

                                                              Page 13
                          standards that were adopted by S&T. This highlights the existence of
                          standards developed by various SDOs that are available for adoption by S&T.

                          In August 2005, S&T developed a separate database for its internal use to
                          compensate for the deficiencies in the HSSD. An S&T official said its
                          database is also the primary means by which S&T tracks equipment standards
                          that have been submitted, are pending, or adopted. It contains standards that
                          were adopted by S&T, already developed by SDOs, and under development
                          by SDOs. It also contains fields that indicate the status of the standards as
                          either draft (submitted for approval) or final, but provides minimal
                          information about the status of standards currently in development. For
                          example, it only lists the date the standards project was initiated; no further
                          information, such as dates the SSAWGs completed their review, is provided.

                          The database lists 65 standards that were already developed or under
                          development by SDOs, of which 39 are relevant to personal protective,
                          detection, and decontamination equipment.31 Of the 39 standards, 26 are
                          already developed standards and 13 are under development. The 26
                          developed standards consist of 24 personal protective and 2 detection
                          equipment standards. Although the 26 developed standards are in S&T’s
                          internal database, it has not formally considered them for adoption.32 In
                          addition, the database does not list communications equipment standards
                          under consideration by SAFECOM. This database is an important
                          recordkeeping resource to track S&T’s process for adopting standards and for
                          assigning proposed standards to the SSAWGs. However, it is incomplete,
                          which diminishes its utility in facilitating S&T’s progress in adopting
                          standards.

                          Recommendation

                          We recommend that the Under Secretary for Science and Technology:

                          1. Ensure that S&T’s internal standards database accurately captures data
                             necessary to track the status of standards being considered for adoption.

                          S&T Standards Apply to a Small Percentage of Items on DHS’ Authorized
                          Equipment List

                          S&T standards apply to a small percentage of the equipment items listed in
                          DHS’ AEL. Of the 178 equipment items on the list that are relevant to

31
   The S&T database of 65 standards includes 20 standards that are listed in the HSSD. The 65 standards do not include
the 12 standards for first responder equipment that were adopted by S&T.
32
   In November 2005, the relevant SSAWG met to consider these 24 personal protective equipment standards, but did not
formally vote on adopting any of these standards.

                           Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                             Responders

                                                              Page 14
                         personal protective, detection, decontamination, and communications
                         equipment for first responders, only 29 items (or 16%) are designated as
                         complying with S&T-adopted standards. Eight items in the AEL personal
                         protective equipment section were not included in the 29 S&T-compliant
                         items, though they comply with a 2005 edition of an NFPA standard, which
                         S&T has yet to adopt.

                         In the AEL detection equipment section, four items listed refer to ANSI
                         standards adopted by S&T. These four items do not comply with S&T
                         standards and were also not included in the 29 compliant items because there
                         is presently no commercially available equipment complying with the ANSI
                         standards. As of May 2005, commercially available detection equipment had
                         not passed applicable tests to comply with ANSI radiological and nuclear
                         detection standards.33 Nonetheless, first responders can purchase these four
                         items.

                         The small percentage of items in the AEL that comply with S&T standards is
                         indicative of the need for S&T to adopt more standards. First responders
                         regularly access the list, which contains equipment that should conform to
                         S&T standards. Attaining the goal of compatibility and interoperability
                         among the first responder community is promoted by having more equipment
                         items that comply with S&T-adopted standards.

                         Communication Interoperability Standards Not Adopted

                         S&T has not adopted any standards for interoperable communications
                         equipment and it appears that the SSAWGs are not formally considering the
                         adoption of any communications standards. However, S&T has instituted a
                         formal agreement with NIST specifying procedures for collaboration on
                         wireless communication technologies. In addition, SAFECOM has
                         established cooperative agreements with other federal agencies and offices,
                         such as NIST and ODP, to continue support for existing standards
                         development initiatives.

                         The Office for Interoperability and Compatibility oversees the SAFECOM
                         program and the communications SSAWG serves in an advisory role
                         regarding policy development and adoption of interoperable communications
                         standards. The program seeks to identify communication requirements for the
                         first responder community and to recommend standards and solutions to meet
                         those requirements. SAFECOM relies on the efforts of SDOs and other
                         external organizations, such as NIST, to research and develop interoperable

33
  First responders procuring non-ANSI compliant equipment are advised to consider including provisions in their
procurement contracts stating manufacturers must retrofit or replace equipment once compliant equipment becomes
available.

                          Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                            Responders

                                                             Page 15
                          communications standards. NIST oversees and provides scientific
                          information for the development of standards that have the broadest effect on
                          interoperability.34 SAFECOM officials meet regularly with working groups
                          comprised of public safety organizations and SDOs to discuss the
                          development of new standards.

                          Specifically, SAFECOM is supporting the standards development activities
                          for Project 25. The Project 25 system has eight “interfaces,” or areas, for
                          which communications standards will be developed. Each interface defines
                          the signal and messages that allows the products of one manufacturer to
                          interoperate with products of other manufacturers. These interface standards
                          are part of the Project 25 suite of standards that is being developed by the
                          Telecommunications Industry Association. Project 25 will ultimately lead to
                          an interoperable digital wireless communications system. The Project 25
                          standards will allow for “backward compatibility,” meaning that new
                          equipment, which is compliant with Project 25 standards, is compatible with
                          existing equipment, such as digital and analog systems. Such standards will
                          assist DHS in its efforts to achieve communication interoperability for first
                          responders.

                          While only one of the eight interfaces comprising Project 25 is fully
                          developed and available for adoption, S&T has not adopted it. The single
                          completed interface for Project 25 is the Common Air Interface. This
                          interface allows portable handheld and mobile digital land mobile radios built
                          by different manufacturers to be able to communicate with one another,
                          assuming they operate within the same band. However, S&T has not adopted
                          this standard because it is incomplete and only a single manufacturer builds
                          Project 25 radio infrastructure.

                          According to the Office for Interoperability and Compatibility’s Director,
                          three additional Project 25 interfaces are required before multiple
                          manufacturers can build compliant infrastructure.35 It would be appropriate
                          for S&T to adopt Project 25 after the interfaces are completed, which the
                          director anticipated will occur by the end of 2007. SAFECOM is also
                          working with NIST to implement a conformity assessment program to ensure
                          that future Project 25 systems comply with its parallel standards.



34
   In FY 2005, S&T entered into an agreement with NIST’s Office of Law Enforcement Standards and provided $6.5
million for the development of equipment and communications system standards, as well as for testing of standardized
equipment. These standards will be designed to allow land mobile radio systems from different manufacturers to be
interconnected.
35
   These three Project 25 interfaces are the Inter-RF Subsystem Interface, the Console-to-Console Interface, and the
Fixed Station Interface.

                           Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                             Responders

                                                              Page 16
                        In the absence of S&T-adopted communication interoperability standards,
                        S&T has recommended that Project 25 standards be the preferred standards
                        for first responders seeking federal funds for interoperability grants.
                        However, abiding by these standards currently is not mandatory for first
                        responders. The resolution of communication interoperability issues continues
                        to be a problem for the first responder community. It is imperative that S&T
                        continues its progress towards adoption of communication interoperability
                        standards.

                        Standards Adoption Performance Measures are Needed

                        We reviewed relevant laws, regulations, and policies, which apply to the S&T
                        standards adoption process, and determined that S&T has no specific,
                        quantifiable performance measures for adopting standards. One directive,
                        “Adoption of Department of Homeland Security (DHS) National Standards,”
                        contains applicable performance measures. However, they are vague, are not
                        quantified, and do not prescribe performance goals for completing the S&T
                        standards adoption process.36 The directive only applies to the appropriate
                        S&T subject matter expert in establishing an unspecified “completion date”
                        for the relevant SSAWG to finalize its review of the proposed standard. The
                        directive states that the SSAWG should review the proposed standard “on a
                        timely basis,” which is also not defined. An S&T official confirmed that S&T
                        has not established any timeframes for reviewing equipment standards and
                        reviews are conducted depending on priorities and on a case-by-case basis.

                        Standards adoption performance measurement criteria would allow S&T to
                        track its progress in fulfilling its organizational goals and mission, and would
                        provide officials with information on which to base organizational and
                        management decisions. Performance measures should create incentives for
                        continuous improvement in organizational processes, identifying performance
                        gaps, and setting goals for corrective action. When developing performance
                        measures, the measures should be clear and provide quantifiable data with
                        which to evaluate S&T’s achievement of its mission and objectives. The
                        absence of established performance measures inhibits timely adoption of
                        standards for use by the first responder community.

                        Recommendation

                        We recommend that the Under Secretary for Science and Technology:




36
 “Adoption of Department of Homeland Security (DHS) National Standards,” Management Directive 10600.1,
August 3, 2004.

                         Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                           Responders

                                                            Page 17
                           2. Establish specific, quantifiable performance measures for the S&T
                              standards adoption process that will ensure more timely adoption of
                              standards for use by the first responder community.

                           Standards Adoption Process Hindered by Reliance On External Organizations

                           Nongovernmental and governmental entities must be involved in the
                           development and adoption process of S&T standards. Partnerships with
                           external organizations, such as SDOs, are mandated and essential to S&T’s
                           adoption of standards. However, the nature of the voluntary, consensus-based
                           process limits the availability and timeliness of standards for adoption by
                           S&T. As a result, the efficiency by which S&T adopts standards is hindered.
                           An S&T official said that SDOs routinely take five to eight years to develop
                           equipment standards. Furthermore, participation in SDO working groups is
                           voluntary, as members hold other positions and have primary responsibilities
                           outside of the working groups.

                           S&T’s standards adoption process is administrative. No scientific research or
                           the development of technical or performance requirements for first responder
                           equipment are conducted in the Standards Portfolio. Instead, S&T relies on
                           SDOs and other external organizations to fulfill those duties. The SSAWGs
                           identify homeland security vulnerabilities where standards are needed,
                           coordinate with SDOs to develop the necessary standards, and propose
                           existing standards for adoption. The SSAWGs are critical to managing the
                           development of standards by SDOs for DHS purposes. However, after SDOs
                           develop and publish standards, S&T cannot immediately adopt them because
                           the published standards must be proposed by the SSAWGs and must be
                           reviewed by other DHS components for relevancy and applicability.

                           Current Process Is Not Effectively Addressing First Responder Needs

                           By December 2004, DHS had issued three management directives to
                           formalize its standards adoption process. Specifically, the directives establish
                           a centralized structure within S&T for receiving, reviewing, and adopting
                           standards; provide guidance for adopting standards currently in use by DHS
                           components; and, direct the structure, procedures, and activities of the
                           SSAWGs in identifying and adopting DHS standards.37 An S&T official said
                           the directives encapsulate the entire S&T standards adoption process.
                           Although the directives established a centralized process for the review,
                           adoption, and revision of submitted standards, the 12 adopted thus far did not

37
  The first formal SSAWG, for Training, became operational in April 2003 prior to the initiation of the first directive.
Subsequent relevant working groups were formed after the first directive was issued in August 2004. The SSAWG that
most recently became operational is the personal protective equipment SSAWG; the last relevant SSAWG for high
explosives became operational in February 2006.

                            Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                              Responders

                                                               Page 18
                          undergo the process described in the directives.38 The first directive became
                          effective in August 2004, which was six months after the 12 standards were
                          adopted by S&T and no new standards have been submitted for consideration
                          under its centralized process.

                          For example, the eight personal protective equipment standards were adopted
                          based on the recommendation of the IAB. Of the eight standards, IAB
                          approved the five NFPA standards and one NIOSH chemical, biological,
                          radiological, and nuclear standard, for Open-Circuit Self-Contained Breathing
                          Apparatus, in September 2002. However, IAB did not formally announce the
                          adoption of these standards until May 2003. The other two remaining
                          personal protective equipment standards were issued in April 2003 and
                          October 2003. Subsequently, IAB formally announced the approval of these
                          remaining two standards in late 2003. It took DHS less than one year to adopt
                          these eight personal protective equipment standards following IAB’s approval
                          of the standards.

                          The four radiation and nuclear detection standards were developed by IEEE
                          working groups, comprised of ANSI and IEEE members, which were
                          established in cooperation with DHS.39 In January 2004, the working groups
                          published these standards and S&T adopted them one month later. According
                          to an S&T official, the 12 total adopted standards were vetted through the
                          issuance of a “press release,” circulated throughout DHS, which allowed DHS
                          components to comment on the standards prior to their formal adoption by
                          S&T in February 2004.

                          In November 2005, the relevant SSAWG was established and met for the first
                          time since the issuance of the directives to consider personal protective
                          standards in S&T’s internal database. Although the SSAWG did not vote on
                          any of the standards, it will continue to review and consider them in future
                          meetings. However, this SSAWG did not meet until almost a year after the
                          last directive was issued, even though effective, standardized personal
                          protective equipment is imperative to protect the safety and health of first
                          responders.

                          An S&T official said that S&T’s standards adoption process seeks to link
                          equipment standards with DHS grant programs. S&T indicated that if first
                          responder equipment covered under a current grant program complies with
                          existing standards, whether S&T-adopted or not, then S&T should not adopt
                          standards for that equipment. However, as we discuss later, DHS grant
                          programs are the primary mechanism for ensuring that first responders

38
   We requested information relevant to 3 of the 12 S&T adopted standards to review S&T’s evaluative process. We
were provided data outlining the key milestones for the 12 standards but no further documentation was made available.
39
   The IEEE working groups define technical guidelines to which detection equipment must conform.

                           Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                             Responders

                                                              Page 19
     uniformly purchase equipment that complies with S&T standards. Therefore,
     S&T should adopt standards for equipment that is eligible for purchase using
     DHS grant funds.

     An IAB official said, “First responders are dependent on DHS to adopt
     standards because state and local responder efforts are fragmented.”
     However, he acknowledged that standards development is a time-consuming
     process and affirmed that producing equipment based on ineffectual standards
     is not practical. Standards promote consistency in facilitating compatibility
     between multiple pieces of equipment and S&T-adopted standards assist first
     responders in making equipment procurement decisions. However, first
     responders need immediate guidance on which equipment to purchase and
     S&T must accelerate the process by which it reviews and adopts personal
     protective, detection, decontamination, and communication interoperability
     equipment standards. The issuance of three applicable directives has not
     improved the standards adoption rate.

     Recommendation

     We recommend that the Under Secretary for Science and Technology:

     3. Determine appropriate methods for amending the relevant Management
        Directives in order to identify specific timeframes for process objectives,
        monitor the progress of equipment standards adoption, and adjust the
        process, as needed, to effectively adopt equipment standards.


DHS Needs to Ensure First Responder Compliance with S&T
Equipment Standards
     S&T has limited authority to ensure that first responder agencies purchase
     equipment that complies with S&T-adopted standards. Further, S&T must
     rely on ODP to enforce adherence to those standards.

     DHS Grant Programs Serve as the Means for Standards Compliance
     Enforcement

     S&T officials said that it has no authority to promulgate regulations that
     mandate the purchase of specific, qualifying equipment by first responders.
     The HSA does not provide S&T with explicit authority to regulate purchases
     of equipment by first responder agencies. S&T may issue regulations with
     respect to “research, development, demonstration, testing, and evaluation
     activities;” however, this authority does not apply to S&T's activities related


     Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                       Responders

                                        Page 20
                          to adopting standards for first responder equipment.40 Therefore, its standards
                          activities are limited to working with SDOs to develop, adopt, and publicize
                          applicable equipment standards.41

                          Conversely, other federal organizations, such as the Occupational Safety and
                          Health Administration, have the statutory authority to prescribe and enforce
                          standards upon governmental and private entities. The Occupational Safety
                          and Health Administration promulgates regulations that affect workplace
                          safety or health, such as prescribing standards on workplace conditions.42

                          We did not determine the impact of delegating regulatory authority to S&T.
                          This would require evaluation of the resources and operations required to
                          make S&T a regulatory agency and the needed legal authorities, similar to
                          other federal regulatory agencies. However, potential exercise of regulatory
                          authority by S&T might provide the ability to mandate that first responders
                          purchase equipment that complies with S&T standards, regardless of the type
                          of funding used.

                          Since first responder grant recipients are required to abide by federal grant
                          purchasing laws and regulations as a condition of award, grants administered
                          by ODP appear to be the only method by which compliance with S&T-
                          adopted standards can be enforced. Since ODP manages the first responder
                          grant process, it is also responsible for ensuring that equipment purchased by
                          first responders with DHS funds adheres to specific equipment standards.

                          Specific Grant Guidance is Essential

                          DHS’ ability to direct the specifications for equipment purchases depends on
                          whether federal funds are used. Federal law governing ODP grantmaking
                          states that it has the primary federal responsibility for “… directing and
                          supervising terrorism preparedness grant programs of the Federal Government
                          … for all emergency response providers."43 In addition, funds appropriated
                          by the U.S. government and distributed to first responders can only be used
                          for their intended purposes, in this case conforming to DHS equipment
                          standards.44




40
   6 U.S.C. § 186(c).
41
   S&T follows the guidance set forth in OMB’s Circular A-119 and the three directives that give S&T the authority to
direct DHS’ “overall effort of working with [SDOs] to establish voluntary consensus standards” for S&T to adopt.
42
   29 U.S.C. § 655.
43
   6 U.S.C. § 238(c)(3).
44
   31 U.S.C. § 1301(a) and Homeland Security Presidential Directive-8, “National Preparedness,” December 17, 2003.
DHS appropriations for FY 2005 are in P.L. 108-334.

                           Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                             Responders

                                                              Page 21
                         To promulgate this authority to first responders, the FY 2005 HSGP
                         Guidelines state, “Applicants must familiarize themselves with the
                         requirements and restrictions of the Program Guidance for FY05 HSGP” and
                         must accept the Guidance as “binding."45 However, first responders can use
                         non-federal funds to purchase equipment that does not comply with DHS
                         equipment standards. This intergovernmental funding reality limits the extent
                         to which DHS can ensure that first responders purchase equipment that
                         complies with DHS standards and priorities.46

                         First responder recipients are informed through ODP grant guidance that they
                         are required to purchase qualifying equipment listed on ODP’s AEL. First
                         responder equipment listed on the AEL is intended to comply with applicable
                         S&T standards. According to an ODP official, the first responder community
                         uses the AEL extensively. More than 180,000 registrants used the AEL
                         within the first four months of its operation.

                         The requirement that first responders purchase equipment listed on the AEL is
                         affirmed in the HSGP grant guidance. The grant guidance, received by all
                         eligible first responder applicants who apply for relevant federal funds, states
                         that, “Allowable equipment categories for FY05 HSGP” are listed on the
                         AEL. The grant guidance further describes the function and content of the
                         AEL website and its relation to the SEL.

                         The Assistance to Firefighters Grant Program guidance, however, does not
                         contain any language mandating that first responders purchase equipment
                         listed on the AEL. No reference is made to the AEL in the program’s
                         guidance. An ODP official verified that the Assistance to Firefighters Grant
                         Program guidance “does not require grantees to purchase from ODP's AEL.”
                         Since this program’s grants are for basic equipment requests, its guidance
                         does not explicitly mandate that grantees purchase equipment that complies
                         with S&T-adopted equipment standards. Instead, guidance requires recipients
                         to comply with standards, such as those developed by NFPA, which have not
                         necessarily been adopted by S&T.

                         The Assistance to Firefighters Grant Program guidance provides that fire
                         department first responders, who receive “Federal preparedness funding,”
                         must buy equipment that is also compliant with the National Incident
                         Management System “as a condition for receipt of Federal funds.”47 Adoption
                         of this program by states and localities became a requirement in FY 2005.

45
   Fiscal Year 2005 Homeland Security Grant Program, Department of Homeland Security, Office of State and Local
Government Coordination and Preparedness, Office for Domestic Preparedness, Version 2.0, December 22, 2004, p. 16.
46
   Homeland Security Presidential Directive-8, “National Preparedness,” December 17, 2003.
47
   “Assistance to Firefighters Grant (AFG) Program,” 2005 Program Guidance for the Fire Prevention and Safety Grant,
Department of Homeland Security, Office of State and Local Government Coordination and Preparedness.

                          Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                            Responders

                                                             Page 22
                          Compliance with the National Incident Management System includes DHS
                          activities in providing “Federal preparedness assistance through grants…”48
                          However, the Assistance to Firefighters Grant Program guidance does not
                          refer to any specific resource to assist first responders in determining which
                          equipment is allowable and compliant. The guidance also states that
                          applicants will be more competitive if they demonstrate the purchase of
                          equipment towards “voluntary compliance with national standards.”49
                          However, the guidance does not specify the standards with which applicants
                          should comply.

                          The SAFECOM Program developed “Recommended Federal Grant
                          Guidance” to coordinate the way in which funding is allocated and to further
                          interoperable communications.50 This guidance outlines eligibility
                          requirements for first responders to receive grants, the purposes for which
                          grant funds can be used, and guidelines for implementing an interoperable
                          wireless communication system. It also requires first responder agencies to
                          describe plans for achieving improved interoperability in applying for federal
                          grant funding that entails communications equipment.

                          However, adhering to the SAFECOM grants guidance is not mandatory for
                          first responders. The guidance provides that all new systems procured by first
                          responders to achieve interoperability should be Project 25 compatible.51
                          However, this guidance does not preclude funding of non-Project 25
                          equipment when other solutions are readily available. The SAFECOM
                          Director noted that producing the grants guidance was an “interim method” to
                          encourage first responders to abide by communication interoperability
                          standards until they are adopted. Provisions that mandate adherence to
                          communication interoperability standards are not currently included in ODP
                          grants guidance. However, ODP has included SAFECOM’s grant guidance in
                          its grants program guidance related to communication interoperability.

                          The HSGP guidelines summarize the SAFECOM grants guidance in an
                          appendix. However, the Assistance to Firefighters Grant Program guidance
                          does not mention SAFECOM or delineate specific standards for
                          interoperability compliance. However, HSGP guidance does state that
                          equipment that promotes interoperability among neighboring jurisdictions
                          may receive additional consideration in assessing the applicant’s eligibility for
                          its funds. It is not specifically mentioned in the Assistance to Firefighters

48
   Homeland Security Presidential Directive-5, “Management of Domestic Incidents,” February 28, 2004.
49
   “Notice of Guidance,” Assistance to Firefighters Grant Program, Office of State and Local Government Coordination
and Preparedness, Office for Domestic Preparedness.
50
   “Recommended Federal Grants Guidance, Public Safety Communications & Interoperability Grants,” SAFECOM,
Department of Homeland Security, November 2004.
51
   Ibid., p. 3.

                           Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                             Responders

                                                              Page 23
Grant Program; however, an SLGCP official said that ODP reviews all grant
applications to assess conformity to Project 25 in the SAFECOM guidelines.

ODP grants are the primary means for DHS to achieve compatibility and
interoperability among first responder equipment. However, DHS has
marginal authority to mandate adherence to S&T standards particularly if first
responders do not use federal funds to purchase equipment.

Recommendations

We recommend that the Under Secretary for Preparedness:

4. Ensure that the AEL is designated as a source of allowable first responder
   equipment in all ODP grant guidance disseminated to first responder
   recipients.

5. Mandate, through grant guidance and enforcement monitoring, that all
   equipment purchased by first responders using funds from ODP grant
   programs complies with corresponding standards adopted by S&T.

ODP Grants Compliance Activities

ODP monitors the expenditures of its grant funds by first responders through
Preparedness Officers, who are stationed in Washington, DC. ODP employs
36 officers to serve as its liaisons with the first responder community. The
officers are assigned to geographic regions of the United States - eastern,
central, or western. Within each geographic region, Preparedness Officers
cover every state and eligible urban area.

Two review methods are applied to ensure that first responders comply with
ODP grant requirements. Each recipient is required to undergo both types of
reviews annually.

1. Annual Monitoring Visit: Preparedness Officers conduct annual
   monitoring visits to each state’s State Administrative Agency or eligible
   urban areas. Visits consist of assessing the recipient’s operations,
   including a review of files for grantees that received ODP funds. ODP
   analyzes the recipients’ progress in attaining the goals in the applicable
   State or Urban Area Homeland Security Strategies. ODP usually
   examines a sample of purchase orders and receipts in the grant files. For
   purchases of equipment, the Preparedness Officers determine whether the
   equipment bought conforms to the grant guidance. According to an
   SLGCP official, should grantees submit plans stating they will buy
   equipment, ODP ascertains the equipment’s whereabouts and assesses its

Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                  Responders

                                   Page 24
                            program value to the recipients’ security strategy. The Preparedness
                            Officers then complete monitoring visit reports that have to be approved
                            by ODP’s Assistant Director.

                        2. Desk Review: From their Washington, DC headquarters, Preparedness
                           Officers conduct an annual desk review of the relevant grant documents
                           for first responder recipients. The officers review the recipient’s records,
                           which include grant applications and financial status reports, and also
                           determine the actual expenditures of grant funds by the recipients.

                        A Preparedness Officer also said that ODP conducts a review that compares
                        the equipment purchases made by recipients to what the recipients stated they
                        intended to buy in their security strategy. Examining recipient’s budget detail
                        worksheets often satisfies this review.

                        In addition to the Preparedness Officers’ activities, ODP tracks the use of
                        grant funds by requiring first responders to submit periodic grant reports such
                        as an Initial Strategy Implementation Plan, which is due 60 days after the
                        award date, and a Biannual Strategy Implementation Report, due at six-month
                        intervals over the period covering each award. Both plans are designed to
                        outline how each recipient is using ODP grants “to meet the strategic goals
                        and objectives outlined in the State and Urban Area Homeland Security
                        Strategies.” On January 6, 2005, ODP launched the Grants Reporting Tool;
                        an internet application intended to collect submissions, which includes
                        standard reporting formats for the required grant reports. All submissions
                        must be transmitted through the Grants Reporting Tool.

                        S&T Is Not Adequately Monitoring the Authorized Equipment List

                        S&T is not consistently advising ODP as to which equipment on the AEL
                        conforms to S&T equipment standards and has not implemented any
                        procedure to monitor and review the AEL. According to an S&T official,
                        ODP is aware of adopted standards and that the AEL links those standards
                        with its corresponding equipment items.52 ODP is notified that the Standards
                        Portfolio has adopted a standard through the SLGCP Standards Coordinator,
                        which is the formal method for S&T to notify ODP of newly adopted
                        standards. While ODP is informed when S&T adopts a standard, S&T has no
                        similar procedure for ensuring that equipment on the AEL corresponds to its
                        standards. In addition, none of the applicable or draft agreements between
                        S&T and SLGCP delineate any procedure or method for consistently
                        reviewing informational resources, such as the AEL, which are common to
                        both components.
52
  ODP participates in the S&T SSAWGs, as authorized by DHS Management Directive 10601. ODP also participates in
the IAB.

                         Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                           Responders

                                                            Page 25
                        ODP has oversight and maintenance responsibility for the AEL. The list is the
                        primary means by which the first responder community accesses information
                        on DHS equipment standards and allowable equipment purchases. Consistent
                        monitoring and reviews of the AEL by S&T would better ensure that
                        equipment designated on the list complies with its equipment standards.

                        Recommendation

                        We recommend that the Under Secretary for Science and Technology:

                        6. Mandate, through program guidance and standard operating procedures,
                           that S&T systematically monitor and review the AEL to ensure that all
                           listed equipment conforms to currently applicable DHS standards.


                S&T Has Established a Centralized Process to Adopt Equipment
                Standards
                        Although S&T has not applied its process to any DHS equipment standards, it
                        has established centralized procedures to coordinate with SDOs and other
                        external organizations to fulfill its standards adoption mission.

                        Coordination Within DHS

                        S&T coordinates the adoption of equipment standards with other DHS
                        components, a process that was formalized by the issuance of the three
                        directives. DHS components participate within the SSAWGs to review
                        proposed equipment standards and make recommendations for adoption by
                        S&T. DHS components are well represented on the SSAWGs. As of July 20,
                        2005, there were 177 listed members of the 10 relevant SSAWGs, and 46 of
                        the members (or 26%) were from DHS components external to S&T.

                        S&T has entered into several formal agreements with DHS components to
                        define specific roles and responsibilities in coordinating the adoption of
                        equipment standards for first responders. One significant, formalized
                        agreement specifies that SAFECOM will develop grant guidance that is
                        “consistent with SAFECOM objectives.”53 ODP will provide “grants that
                        facilitate the procurement of interoperable communications equipment and



53
  Memorandum of Agreement within the Department of Homeland Security between the Science and Technology
Directorate and the Office of State and Local Government Coordination and Preparedness, August 9, 2004.

                         Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                           Responders

                                                            Page 26
                         that incorporate SAFECOM guidance.” Another significant agreement54
                         creates the understanding that SAFECOM and DHS’ Chief Financial Officer
                         will provide services, personnel, equipment, and funds to support the
                         development and implementation of federal, state, and local programs under
                         SAFECOM’s E-Government Initiative.55

                         S&T and SLGCP are also finalizing a Terms of Reference, which is
                         equivalent to an agreement that seeks to establish a standing coordinating
                         group to organize policy development and strategic planning. The group will
                         collaborate on issues of mutual benefit such as non-communications first
                         responder equipment, resolve conflicting activities, and leverage each other’s
                         resources. S&T’s role will be to adopt standards that ODP can share with first
                         responders through its grant programs. ODP will provide equipment
                         performance information, gleaned from first responders, to S&T for use in
                         adopting equipment standards. However, this agreement has not been signed
                         and the coordinating group is not operational.

                         In addition to the formal agreements, S&T and SLGCP have implemented
                         coordinative activities on equipment standards. SLGCP has a liaison assigned
                         to S&T who coordinates with the first responder community to determine
                         which standards need to be adopted. The SLGCP coordinator attends weekly
                         S&T standards meetings conducted by the Standards Executive and is tasked
                         with notifying SLGCP when standards are adopted.

                         S&T managers said that personnel from the National Incident Management
                         System Integration Center and SLGCP attend weekly PPR and SED staff
                         meetings. S&T assigned two employees to the center as full-time
                         coordinators to ensure that the National Incident Management System was
                         compliant with S&T standards. These employees also participate in SSAWGs
                         and interact with SAFECOM through staff meetings, conferences, telephone
                         calls, and other methods to discuss issues to ensure communication
                         interoperability requirements are incorporated into the National Incident
                         Management System.

                         Inter-Agency Coordination and Support



54
   Memorandum of Understanding between the Department of Homeland Security SAFECOM (Electronic) E-
Government Initiative Program Office and the Department of Homeland Security, Office of the Chief Financial Officer,
February 2005.
55
   U.S. Government Accountability Office, Electronic Government: Selection and Implementation of the Office of
Management and Budget’s 24 Initiatives, GAO-03-229, November 22, 2002. One of the five priorities in the President’s
Management Agenda was the expansion of electronic government - the use of internet applications to enhance access to
and delivery of government information and services. Project SAFECOM was one of the 24 initiatives sponsored by
OMB to implement this agenda.

                          Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                            Responders

                                                             Page 27
                        S&T implemented agreements with other federal agencies to facilitate the
                        standards adoption process for communication interoperability. Two formal
                        agreements were made with NIST. One agreement establishes coordination
                        between the two agencies and allows for collaboration and cooperation on
                        standards adoption.56 The second agreement specifies a procedure for
                        collaboration on wireless communication technologies.57 In FY 2004, S&T
                        awarded NIST $23.6 million to oversee the development of homeland
                        security-related standards for chemical, biological, radiological, nuclear, and
                        explosive countermeasures, personal protective equipment, and
                        communications. In FY 2005, S&T awarded NIST $26.9 million for similar
                        purposes.58

                        Significant personnel were detailed to S&T from key federal agencies to
                        facilitate the standards adoption process. Specifically, S&T has personnel
                        detailed from NIST in important decision making positions within PPR and
                        SED. NIST is an important partner with S&T in the adoption process because
                        it provides scientific resources and experience in facilitating the development
                        of standards for equipment, protective clothing, and communications for the
                        first responder community. S&T more effectively employs the scientific and
                        research assets of NIST through its standards officials.

                        Between February and June 2005, DHS also signed agreements with the
                        Departments of Agriculture, Defense, Energy, Health and Human Services,
                        and Justice regarding the SAFECOM E-Government Initiative.59 These
                        agreements have the same purpose and contain similar language as the
                        agreement between SAFECOM and DHS’ Office of the Chief Financial
                        Officer.

                        External Organization Coordination and Support

                        S&T’s standards adoption process is dependent upon SDOs and other external
                        entities, most notably ANSI, IAB, IEEE, and NFPA. Each organization is
                        aware that a centralized standards adoption process exists within S&T, which
                        involves coordination among federal, state, and local governments, as well as
                        the private sector. For example, the IAB identifies standards that are needed
                        for chemical, biological, radiological, nuclear, and explosive equipment and

56
   Memorandum of Understanding, Science & Technology Directorate and National Institute of Standards and
Technology, May 22, 2003.
57
   Interagency Agreement, Number HSHQPA-04-X-00378, with the National Institute of Standards and Technology’s
Office of Law Enforcement Standards, July 27, 2005.
58
   These amounts do not incorporate agreements between NIST and SAFECOM.
59
   Memoranda of Agreement between the Department of Homeland Security and the Department of Justice, February
2005; the Department of Energy, March 2005; the Department of Defense, May 2005; the Department of Agriculture,
June 2005; and, the Department of Health and Human Services, February 2005, regarding the SAFECOM E-Government
Initiative.

                         Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                           Responders

                                                            Page 28
                         informs S&T, through the formal SSAWG process, that relevant standards
                         need to be adopted.

                         An IEEE representative said it aligns standards development objectives with
                         S&T by participating on the Homeland Security Standards Panel.60 NFPA
                         maintains regular dialogues with S&T officials to apprise them of its activities
                         related to developing equipment standards. In addition, representatives from
                         the SDOs and other standards organizations said they interact extensively with
                         S&T through regular conferences, telephone calls, and other means.

                         SAFECOM officials attend national meetings of standards-related
                         organizations, such as ANSI, IAB, NFPA, and the Association of Public
                         Safety Communications Officials, to review communications equipment
                         standards for potential updates as technology evolves. During these meetings,
                         the ongoing and future development of relevant standards by SDOs is shared.
                         However, decisions reached at these meetings, which can involve actual
                         standards development and approval, are not binding on S&T.

                         From FY 2003 to FY 2005, S&T provided $60.2 million to SDOs and other
                         external organizations to further its adoption of equipment standards. For
                         example, S&T provided $1.4 million for ANSI to develop and maintain the
                         HSSD in order to centralize national and international homeland security
                         standards, and in FYs 2004 and 2005, for activities relating to equipment
                         standards development. In conjunction with S&T, ANSI has taken the lead in
                         coordinating all homeland security standards development through the
                         Homeland Security Standards Panel. Panel participants include SDOs, first
                         responders, and government agencies.

                         The IAB provides a forum for first responders to articulate their views on
                         equipment standards. In both FY 2004 and FY 2005, S&T provided the IAB
                         with $250,000 for technical and program support of its equipment standards
                         activities.

                         The following table summarizes the funding given by S&T to various SDOs
                         and private organizations to support standards development activities.




60
   The Homeland Security Standards Panel coordinates SDOs, private sector organizations, first responder groups, and
other government agencies involved with homeland security. The panel assesses specific technical areas to determine
whether standards already exist. It also reviews areas where more standards are needed and makes recommendations for
SDOs to develop relevant standards.

                          Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                            Responders

                                                             Page 29
                                                                                                                                   61
                         Table 2: S&T Funds Provided to External Organizations, FY 2003 – FY 2005

                                                                                                     InterAgency
                                        National      American       Institute of   Association of    Board for
                                       Institute of    National      Electrical &    Analytical       Equipment
                                                                                                                        Total
                                     Standards and    Standards      Electronics      Chemists     Standardization
                                      Technology       Institute      Engineers     International      and Inter
                                                                                                     Operability

                           FY 2003        N/A         $153,623           N/A         $3,223,286         N/A          $3,376,909

                           FY 2004    $23,562,000     $931,977         $81,000       $2,944,757       $250,000       $27,769,734

                           FY 2005    $26,854,000     $510,300         $79,500       $1,336,691       $250,000       $29,030,491
                           Total      $ 50,416,000    $1,595,900      $160,500       $7,504,734       $500,000       $60,177,134


                         For FY 2005, the S&T Standards Portfolio budgeted $39.7 million to support
                         the activities of external organizations in developing and coordinating the
                         adoption of DHS standards.62 According to an S&T official, it evaluates
                         which SDOs receive funds on a case-by-case basis. Currently, S&T provides
                         funds to SDOs for three primary reasons: (1) to access the standards of a
                         particular SDO (equivalent to a membership benefit); (2) to gain membership
                         on an SDO executive committee that considers long-term strategies for
                         standards development; and, (3) to coordinate with SDO subject matter
                         experts on new standards projects. However, we could not identify any
                         systematic criteria that S&T uses when determining the most suitable SDOs
                         for standards-related funding.


    Management Comments and OIG Analysis
                         In their responses, S&T and Preparedness Directorate provided specific
                         comments on each recommendation for which they were responsible, as well
                         as technical comments on specific statements and facts contained within the
                         report. S&T concurred with the four recommendations directed at it, and
                         noted that our recommendations were sound and represented better
                         operational ways to address its adoption of equipment standards for first
                         responders. Preparedness did not concur with one of the two
                         recommendations in its purview. We regard four recommendations resolved
                         and two recommendations unresolved. All recommendations remain open.




61
   The amounts provided to ANSI, IEEE, and the Association of Analytical Chemists International were derived from
contracts S&T provided on August 31, 2005. No funds were provided to NFPA or NIOSH.
62
   For FY 2006, S&T’s Standards Portfolio has a budget of $35 million to support similar activities of external
organizations.

                          Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                            Responders

                                                                   Page 30
Concerning their technical comments on specific statements and facts in the
report, we evaluated each comment on its merit and modified our report where
appropriate.

Below are management’s comments on each recommendation and our
analysis of their comments. A copy of S&T’s and Preparedness’ responses, in
their entirety, is recorded in Appendix B.

Recommendation 1: Ensure that S&T’s internal standards database
accurately captures data necessary to track the status of standards being
considered for adoption.

S&T Response: While S&T concurred with the recommendation, it
emphasized that the internal S&T database needs to accurately capture the
proposed standard’s progression through the SDO development process. S&T
stated that the Standards Portfolio is not adequately staffed to track the status
of standards being developed by SDOs, which represent complex, internal
operations of non-governmental organizations.

S&T proposed amending the three binding directives to assign the tracking of
a standard’s development to the Standards Coordinator. S&T also noted that
the Standards Portfolio has begun to identify single points of contact for first
responder equipment standards in other DHS agencies. These personnel,
embedded within other DHS components, will monitor the needs and status of
standards that particularly affect DHS organizations. S&T again proposed
amending the three binding directives to mandate that the relevant Standards
Subject Area Expert would perform this liaison function, while also having an
appropriate standards expert lead each relevant SSAWG.

OIG Evaluation: We consider the recommendation resolved because S&T’s
suggested amendments to the directives will help ensure that its internal
database will accurately capture data to track the status of standards being
considered for adoption. However, S&T needs to clearly define the standards
process data that its internal database will capture.

Specifically, we approve of centralizing the tracking of proposed standards to
the Standards Coordinator. We also agree that the relevant Standards Subject
Area Expert should perform a liaison function with other DHS components,
for the SSAWGs. However, we underscore that the spirit of this
recommendation involves equipment standards proposed and being
considered for adoption in the internal S&T process. This recommendation
does not entail tracking standards undergoing the SDOs’ more complex and
technical development process.



Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                  Responders

                                   Page 31
The recommendation remains open until we receive updated directives that
contain the appropriate policy changes that assign the tracking of proposed
standards to the Standards Coordinator and have the Standards Subject Area
Experts perform liaison functions with other DHS components.

Recommendation 1 – Resolved - Open

Recommendation 2: Establish specific, quantifiable performance measures
for the S&T standards adoption process that will ensure more timely adoption
of standards for use by the first responder community.

S&T Response: According to S&T, timelines can be established as
performance measures for those actions within the control of S&T and other
DHS components. S&T suggested a multi-phased approach for standards
adoption performance measures:

   1. Establish performance measures for determining the validity and
      usefulness for adopting the standards listed in the HSSD and in S&T’s
      internal database.
   2. For standards to be adopted, develop a different set of performance
      measures to measure their rates of adoption.
   3. For standards that require further tailoring or development,
      performance measures do not apply since the activities of independent
      SDOs are outside of S&T’s control.

OIG Evaluation: We consider the recommendation resolved. We concur
with S&T’s plan to implement two types of performance measures for its
standards adoption processes that will assess the efficiency of specific,
incremental milestones. The timeliness measures for standards already in the
two databases, as opposed to standards newly proposed to S&T, should be
parallel when they coincide.

We emphasize that S&T is not accountable for the timeliness of standards
being developed by external SDOs, which are beyond S&T’s control. These
performance measures are only applicable to standards already developed by
SDOs and available for adoption by S&T.

The recommendation remains open until we receive a copy of the applicable,
quantifiable performance measures for those standards adoption actions within
S&T’s purview.

Recommendation 2 – Resolved - Open




Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                  Responders

                                   Page 32
Recommendation 3: Determine appropriate methods for amending the
relevant Management Directives in order to identify specific timeframes for
process objectives, monitor the progress of equipment standards adoption, and
adjust the process, as needed, to effectively adopt equipment standards.

S&T Response: S&T emphasized that since proposed standards must be
vetted through other affected DHS agencies, it controls only certain steps of
the adoption process. S&T elaborated that the SSAWGs are the vehicle for
monitoring and recommending the adoption of standards. SSAWGs are
staffed with employees of the affected DHS agencies in order to obtain
consensus from DHS agencies most directly affected by a standard. However,
delays are inevitable because the SSAWGs are constituted using a team
structure. This delays the process because every affected organization must
approve each standard. These delays could be mitigated by decreasing the
size of the SSAWGs’ membership, from covering every affected organization
to only those that are most heavily affected. S&T even suggested a “radical
change” of discarding the SSAWG structure in favor of assigning single
experts for each type of equipment.

OIG Evaluation: We consider the recommendation unresolved and open
because S&T’s comments are not directly responsive to this recommendation.
We agree that the SSAWGs are the most appropriate entities for monitoring
the progress of equipment standards adoption and proposing adjustments to
the process when necessary. However, S&T’s response did not specify the
methods and frequency for monitoring the progress of equipment standards
adoption, or how the SSAWGs should propose changes to the adoption
process as enumerated in the directives.

Recommendation 3 – Unresolved - Open

Recommendation 4: Ensure that the AEL is explicitly designated as the
source of first responder equipment in all ODP grant guidance disseminated to
first responder recipients.

Preparedness Response: Preparedness did not concur with this
recommendation. It stated that the AEL was developed to focus on equipment
for chemical, biological, radiological, nuclear, and explosive incidents, and
was never intended to guide equipment purchases in all Preparedness grant
programs. Specifically, the Assistance to Firefighters Grant Program has a
broad statutory mandate that allows recipients to purchase equipment and
training, such as for wellness, fitness, and emergency medical services, which
may not be listed on the AEL. Preparedness stated that restricting Assistance
to Firefighters Grant recipients to the AEL would be inconsistent with the



Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                  Responders

                                   Page 33
program’s statutory authority and would hinder the recipient’s ability to
purchase essential equipment.

Preparedness emphasized that it continues to coordinate with S&T on its
standards adoption program to support the application of standards by first
responders. Preparedness concluded that it would consider the
appropriateness of incorporating S&T-adopted standards into its grant
programs.

S&T Response: S&T stated that the Assistance to Firefighters Grant
Program predates DHS and funds other types of homeland security-related
equipment. Therefore, resistance from state and local first responders should
be anticipated in identifying the AEL as the primary source of information on
first responder equipment.

OIG Evaluation: We consider the recommendation resolved and open. We
agree with both Preparedness and S&T’s responses that the AEL is limited in
both identifying all available equipment for first responders and in ascribing
equipment standards to every item. However, as we noted in our report,
Preparedness grants are the primary means for DHS to achieve compatibility
and interoperability among first responder equipment. In addition, the
requirement that first responders purchase equipment listed on the AEL is
affirmed in the HSGP grant guidance, which is Preparedness’ largest grant
program that distributes funds to first responders.

We recognize that the Assistance to Firefighters Grant Program gives first
responders sensible latitude with their equipment purchases. Current grant
guidance for this program offers several general options for standards, but it
does not specify the standards to which first responders should conform their
equipment purchases (whether mandatory or not). All Preparedness’ grant
guidance should, at a minimum, reference the AEL as a resource to assist first
responders in determining which equipment is allowable and compliant.

In light of the comments on this recommendation, we amend the
recommendation as follows: “Ensure that the AEL is designated as a source
of allowable first responder equipment in all ODP grant guidance
disseminated to first responder recipients.”

Recommendation 4 – Resolved - Open

Recommendation 5: Mandate, through grant guidance and enforcement
monitoring, that all equipment purchased by first responders using funds from
ODP grant programs complies with corresponding standards adopted by S&T.



Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                  Responders

                                   Page 34
Preparedness Response: Preparedness concurred with this recommendation,
emphasizing that all S&T-adopted standards were incorporated into the
HSGP. Preparedness stated that buying equipment that complies with the
standards is mandatory where at least one commercial product exists that
conforms to the standard. Compliance with S&T standards is recommended
where no products have yet passed the test requirements.

Preparedness also explained that while some SDO standards were
incorporated as mandatory standards in grant guidance, further S&T-adopted
standards will be integrated into all grant guidance.

S&T Response: According to S&T, equipment currently on the AEL should
still be eligible for purchase, until S&T adopts a corresponding standard for
that equipment. Once a standard is adopted by S&T, the AEL has to be
screened to ensure that the equipment on the list, which is linked to that
standard, also meets that standard. If it is determined that existing equipment
on the AEL does not meet newly adopted standards, then an equitable process
needs to be implemented to resolve this problem. New equipment should only
be added to the AEL if it conforms to adopted standards or receives a waiver,
on a case-by-case basis, to fulfill a pressing need.

OIG Evaluation: We consider the recommendation unresolved and open.
The spirit of this recommendation is for Preparedness to ensure that first
responders buy equipment, using its grant funds, which complies with
corresponding S&T standards. This should be done by incorporating
appropriate provisions in the grant guidance. While applicable provisions
were contained in the HSGP guidance, the Assistance to Firefighters Grant
Program guidance does not explicitly mandate that grantees purchase
equipment that complies with S&T-adopted equipment standards. Instead,
this guidance requires recipients to comply with standards, such as those
developed by NFPA, which have not necessarily been adopted by S&T.

In its response, Preparedness also did not address any methodology for how
its enforcement monitoring process would ensure that all equipment,
purchased by first responders using ODP funds, complies with corresponding
S&T standards.

DHS needs to take advantage of these incremental opportunities to enhance
equipment compatibility and interoperability for first responders. If S&T
standards exist for first responder equipment, then first responders should
have to buy equipment that complies with those standards when using
Preparedness grant funds.

Recommendation 5 – Unresolved - Open

Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                  Responders

                                   Page 35
Recommendation 6: Mandate, through program guidance and standard
operating procedures, that S&T systematically monitor and review the AEL to
ensure that all listed equipment conforms to currently applicable DHS
standards.

S&T Response: S&T countered that no directive specifically delegates the
responsibility for monitoring and reviewing the AEL to any particular entity
in the standards adoption process. However, S&T stipulated that this function
is most proper for the Standards Subject Area Expert, within the appropriate
SSAWG. S&T stated it would add suitable statements to the directives to
assign this duty. Additionally, the SSAWG members should be given the
responsibility for advising the Standards Subject Area Expert if they become
aware of an event that alters the AEL, such as the adoption of new standards.
S&T proposed to review the AEL on a regular basis, such as quarterly.

Since Preparedness has primary control over the AEL, S&T proposed that the
standards point of contact at Preparedness (Office of Grants and Training) be
given the responsibility for alerting the S&T Standards Portfolio of any
standards-related activities that impact information on the AEL.

OIG Evaluation: We agree that the pertinent directives do not assign
responsibility for monitoring and reviewing the AEL to any S&T entity.
However, the directives should be amended to satisfy this recommendation.

We consider the recommendation resolved because the proposed changes to
the directives are sufficient. However, the relevant provisions in the
directives should clearly designate the specific level of Standards Subject
Area Expert who is responsible for monitoring the AEL. S&T should also
review the AEL at least on a semi-annual basis.

The recommendation remains open until we receive revised copies of the
directives that explicitly assign S&T responsibilities for monitoring and
reviewing the AEL.

Recommendation 6 – Resolved - Open




Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                  Responders

                                   Page 36
Appendix A
Purpose, Scope, and Methodology


Purpose, Scope, and Methodology
                        The purpose of our review was to assess the Science and Technology (S&T)
                        directorate’s progress in establishing equipment and communication
                        interoperability standards for the first responder community. We examined
                        S&T’s operations and performance in fulfilling these efforts and its
                        coordination with other DHS components to ensure dissemination and
                        awareness of equipment standards adopted by S&T; the number and types of
                        adopted standards related to first responder equipment and communication
                        interoperability; and, the extent to which S&T has the authority to ensure that
                        first responders comply with DHS equipment standards

                        We reviewed S&T’s organizational structure and objectives for adopting
                        equipment standards and the roles and responsibilities of the Programs, Plans,
                        and Requirements (PPR) and Systems Engineering and Development (SED)
                        offices as they have primary responsibility for researching and adopting
                        relevant standards for first responders. Our review included an analysis of the
                        process by which PPR and SED receive proposed equipment standards from
                        Standards Development Organizations (SDOs).

                        We did not evaluate the effectiveness of the S&T technical process for
                        determining which equipment and communication interoperability standards
                        to adopt. We also did not assess compliance by first responders in purchasing
                        equipment that complies with DHS equipment standards.

                        Our fieldwork included interviewing, analyzing data, and reviewing
                        documents and information. We interviewed S&T management and program
                        officials at headquarters and interviewed officials of the Office of State and
                        Local Government Coordination and Preparedness who are knowledgeable
                        about equipment standards and DHS grant programs. We also interviewed
                        officials within DHS’ Emergency Preparedness & Response directorate and
                        the Domestic Nuclear Detection Office, and officials from organizations with
                        expertise in first responder equipment standards, including the National Fire
                        Protection Association, the Institute of Electrical & Electronics Engineers, the
                        National Institute of Standards and Technology, the American National
                        Standards Institute, and the InterAgency Board for Equipment Standardization
                        and Inter Operability.

                        We analyzed S&T’s national standards tracking database that maintains data
                        on DHS standards and standards submitted by SDOs. We also examined the
                        time S&T requires to complete the standards adoption process.



                         Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                           Responders

                                                            Page 37
Appendix A
Purpose, Scope, and Methodology


                        We reviewed statutes, such as the HSA, and regulations and we examined data
                        related to contracts between S&T and SDOs and other external organizations.
                        We analyzed data in the Authorized Equipment List, the Responder
                        Knowledge Base, the Standardized Equipment List, and the Homeland
                        Security Standards Database, and grants and funding data related to the
                        Homeland Security Grant Program and the Assistance to Firefighters Grant
                        program.

                        We conducted our review between June and October 2005. Our review was
                        conducted under the authority of the Inspector General Act of 1978, as
                        amended, and according to the Quality Standards for Inspections issued by the
                        President’s Council on Integrity and Efficiency.




                         Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                           Responders

                                                            Page 38
Appendix B
Management Response to Draft Report


              [Science & Technology Directorate’s Response to Recommendations]

Draft Report: A Review of DHS’ Progress in Adopting and Enforcing Equipment
Standards for First Responders
Opening Comment:

In Recommendation #3, the OIG Report notes that the management directives for standards adoption
should be amended for the specific purpose of adding timelines. The discussion below references
several other changes in the management directives, particularly Management Directive (MD)
10601.1.

Standards Data is Not Consistently Captured

Recommendation (pg 14 of draft report)

We recommend that the Under Secretary for Science and Technology:

1. Ensure that S&T’s internal standards database accurately captures data necessary to track the
status of standards being considered for adoption.

While this recommendation is valid, its emphasis misses the point. The database needs to accurately
capture data as a standard progresses through development. However, the Standards Portfolio is not
adequately staffed to track the status that would be input into the database. The technology areas
involved with personal protection, detection, decontamination, and communications is varied and
complex. Several SDOs are in fact required to address all of the detailed issues involved in creating
standards for the whole of these technology areas. Several committees or working groups within an
SDO can often be engaged in the creation of a single standard. The issues within a single standard
can often be so involved that periodic meetings last for a week. Therefore, the work required to be
able to accurately track a standard’s status can be quite intensive. If S&T’s internal standards
database is to have value, it is necessary to meaningfully engage the activities of the SDOs in order
to populate the database with impartial and accurate data. It is this engagement of the SDOs which
requires adequate staffing.

In MD 10600.1 tracking the status of standard development is a function appropriate for the
Standards Coordinator, Section 4.L. A statement capturing this recommendation should be added to
    • MD 10600.1 in Sections 4.E.,
    • MD 10601 in Sections 4.E, and possibly in 5.B., 6.B.4., 6.C.4, 6.D.1, and/or 6.F.3.,
    • MD 10602 in Section V.B.

The Standards Portfolio has begun to identify a single point of contact (POC) for standards in the
other DHS Departments and Agencies. These POCs are valuable assets as they are imbedded within

                        Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                          Responders

                                                           Page 39
Appendix B
Management Response to Draft Report


the sister components of DHS and are monitoring the needs and status of standards that particularly
affect their organization. Currently the POCs participate in the weekly staff meeting conducted by
the Portfolio. It would be beneficial if the Portfolio had sufficient permanent staff to have closer
contact with these POCs. Standards Subject Area Expert (SSAE), as defined in Section 4.M. of MD
10600.1, would be candidates to perform this liaison function plus lead the Standards Subject Area
Working Groups (SSAWG) described in MD 10600.1, Section 4.N. Statements designating this
responsibility to the SSAE could be added to Sections 5 and 6 of MD 10601.1.

Standards Adoption Performance Measures are Needed

Recommendation (page 17 of draft report)

We recommend that the Under Secretary for Science and Technology:

2. Establish specific, quantifiable performance measures for the S&T standards adoption process
that will ensure more timely adoption of standards for use by the first responder community.

Timelines can be established as performance measures for those actions within the control of S&T
and by extension, DHS (G&T). If candidate standards under consideration require tailoring or even
new development by SDOs, then S&T can monitor progress but can not be held accountable for
timelines that are beyond its control. A multi-phased approach for establishing performance
measures and timelines may therefore make sense. Consider the following:

        Develop performance measures for determining the validity and usefulness for adopting the
        standards listed among the 81 standards in the HSSD and the 65 in S&T’s internal database.
        For standards to be adopted, develop another set of performance measures to measure their
        rate of adoption.
        For standards of interest that require further tailoring or development, performance measures
        would not apply since the activities of independent SDOs are outside the control of S&T and
        therefore, timelines tied to performance measures are unenforceable by the Portfolio.
        Establishing a tracking process that records events in the lifecycle of standards development,
        such as, issuance of first draft, sending out for comments, resolution of comments, and final
        passage is appropriate, but S&T should not be held accountable for external delays.
        Once new standards are completed and ready for adoption, timelines can be established.


Current Process Is Not Effectively Addressing First Responder Needs

Recommendation (page 20 of draft report)

We recommend that the Under Secretary for Science and Technology:




                        Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                          Responders

                                                           Page 40
Appendix B
Management Response to Draft Report


3. Determine appropriate methods for amending the relevant Management Directives in order to
identify specific timeframes for process objectives, monitor the progress of equipment standards
adoption, and adjust the process, as needed, to effectively adopt equipment standards.

To “effectively adopt equipment standards” a standard must be completed then vetted through the
DHS Directorates/Agencies that are affected by it. As noted above, DHS does not control the
development of standards to the extent that it is possible to set timeframes for their development by
independent SDOs. Once completed S&T has the obligation to vet standards through the other
Directorates in DHS, in particular those that will have their responsibilities affected on a daily basis
by the standard, e.g., those using WMD detection devices at the borders. While S&T can shepherd
the documents through the process, it would be difficult to control. This being said, it is possible to
monitor this process for certain other parts of the adoption process.

The Management Directives have set up the SSAWGs as the vehicle to perform the tasks of
monitoring and recommending the adoption of standards. As the name implies a SSAWG is a team
of experts. Both the letter and spirit of the process is to have this team be populated with employees
of the affected Directorates and Agencies. In addition to benefiting from the expert’s talents, a
major objective is to garner buy-in by having those most directly affected by a standard be the same
people who recommend the adoption of that standard. The negative effect of having a group
structure is that delays are inevitable. These delays could be mitigated by decreasing the size of the
group from covering every affected organization to those most highly affected. A radical change
would be to discard the group structure in favor of a single expert model. In this latter case the
incumbent expert would likely have to have standards identification, review and adoption as a major
task of their position.

If the last recommendation is accepted the Directives need to engage G&T in an appropriate way.
Additionally the Directives need to bring in the appropriate level of support from other components
of DHS and should include some participation of state and local bodies through G&T.


Specific Grant Guidance is Essential

Recommendation (Page 23 of draft report)

We recommend that the Under Secretary for Preparedness:

4. Ensure that the AEL is explicitly designated as the source of first responder equipment in all ODP
grant guidance disseminated to first responder recipients.

The Office of Grants and Training’s fire and law enforcement grant program predates DHS. It is
possible that by limiting the procurement of equipment to the AEL may be construed by customers
of the AEL as too restrictive for a legacy grant program that was meant to actually do more than
fund homeland security related equipment. The Department should anticipate resistance from the


                        Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                          Responders

                                                           Page 41
Appendix B
Management Response to Draft Report


state and local communities and reach out to the fire and law enforcement departments and the
Congress to determine what the level of resistance may be and attempt to assuage any problems
before they occur.

Regarding SAFECOM the Report contains the following comment concerning Project 25 (P25) on
Page 16.

        “While only one of the eight interfaces comprising Project 25 is fully developed and
        available for adoption, S&T has not adopted it. …. It is imperative that S&T continues its
        progress towards development and adoption of communication interoperability standards.”

The single completed interface for P25 is the Common Air Interface (CAI). The CAI allows
portable handheld and mobile digital land mobile radios built by different manufacturers to be able
to communicate with one another, assuming they operate within the same band. The reason that
S&T has not adopted this standard yet is that it is incomplete. To date, only a single manufacturer
builds “P25” radio infrastructure. To adopt this standard before it is complete would in effect
mandate a sole source.

Three additional P25 interfaces are required before multiple manufacturers will have an ability to
actually build compliant P25 infrastructure. These interfaces are the Inter-RF Subsystem Interface
(ISSI), the Console-to-Console Interface, and the Fixed Station Interface. Significant progress has
been made in the past year to greatly accelerate these three interfaces.

Once the interface issue is solved sufficient portions of the P25 standard will be complete. At that
time it would be appropriate for S&T to adopt P25. It is anticipated that this may occur as soon as
the end of this calendar year or early next.


5. Mandate, through grant guidance and enforcement monitoring, that all equipment purchased by
first responders using funds from ODP grant programs complies with corresponding standards
adopted by S&T.

Equipment currently on the AEL should continue to be allowed for purchase, i.e. “grandfathered”,
until S&T adopts a corresponding standard for that piece of equipment. Once a standard is adopted
by S&T, the AEL would need to be screened to identify that the equipment on the list “serviced” by
that standard meets that standard. If it is determined that existing equipment on the AEL will not
meet newly adopted standards, then an equitable process/timeline would need to be determined to
resolve this problem. New equipment should only be added to the AEL if it meets adopted standards
or receives a waiver on a case-by-case basis to fill a pressing need.

S&T is not adequately monitoring the Authorized Equipment List

Recommendation (Page 25 of draft report)


                        Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                          Responders

                                                           Page 42
Appendix B
Management Response to Draft Report




We recommend that the Under Secretary for Science and Technology:

6. Mandate, through program guidance and standard operating procedures, that S&T systematically
monitor and review the AEL to ensure that all listed equipment conforms to currently applicable
DHS standards.

Management Directive 10600.1 does not specifically delegate the responsibility of monitoring and
reviewing the AEL to any particular team or individual in the standards adoption process. This
function is most appropriate for either or both the SSAE or the SSAWG. It is recommended that
primary responsibility for this be given to the SSAE by adding suitable statements to Section 5 and 6
of MD 10600.1. Additionally the SSAWG members should also be given responsibility for
advising the SSAE if they become aware of an event that alters the AEL, e.g., addition of new
equipment or standards activities. The AEL should be reviewed on a regular basis, e.g., quarterly. It
is recommended that appropriate language be added to Management Directive 10600.1 at Section
5.C. and to Management Directive 10602 at Section V.B.

Since primary control over the AEL rests in the domain of OGT, it is recommended that the
standards point of contact at OGT, whether informally or formally , e.g., MOU, be given the
responsibility of alerting the S&T Standards Portfolio of any activities that alter the AEL in a
manner that affects standards requirements.




                        Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                          Responders

                                                           Page 43
Appendix B
Management Response to Draft Report




                        Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                          Responders

                                                           Page 44
Appendix B
Management Response to Draft Report




                        Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                          Responders

                                                           Page 45
Appendix B
Management Response to Draft Report




                        Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                          Responders

                                                           Page 46
Appendix C
Major Contributors




                     Marcia M. Hodges, Chief Inspector, Department of Homeland Security,
                     Office of Inspections and Special Reviews

                     Carlton Mann, Chief Inspector, Department of Homeland Security, Office of
                     Inspections and Special Reviews

                     Andrew B. Hoffman, Inspector, Department of Homeland Security, Office of
                     Inspections and Special Reviews

                     Jacqueline D. Simms, Senior Inspector, Department of Homeland Security,
                     Office of Inspections and Special Reviews

                     Kristine Odiña, Inspector, Department of Homeland Security, Office of
                     Inspections and Special Reviews




                     Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                       Responders

                                                        Page 47
Appendix D
Equipment Standards Adopted by S&T


Listed below are the 12 standards for personal protective and detection equipment that were adopted
by S&T in February 2004:63

Standards for Personal Protective Equipment
1. NIOSH: Chemical, Biological, Radiological and Nuclear Standard for Open-Circuit Self-
   Contained Breathing Apparatus (December 2001)
   This standard establishes performance and design requirements to certify Self-Contained
   Breathing Apparatus for use in chemical, biological, radiological, and nuclear exposures for use
   by emergency responders.
2. NIOSH: Standard for Chemical, Biological, Radiological, and Nuclear Full Facepiece Air
   Purifying Respirator
   The purpose of this standard is to specify minimum requirements to determine the effectiveness
   of full facepiece air purifying respirators, commonly referred to as gas masks, used during entry
   into chemical, biological, radiological, and nuclear atmospheres not immediately dangerous to
   life or health.
3. NIOSH: Standard for Chemical, Biological, Radiological, and Nuclear Air-Purifying Escape
   Respirator and Chemical, Biological, Radiological, and Nuclear Self-Contained Escape
   Respirator
   The purpose of this standard is to specify minimum requirements to determine the effectiveness
   of escape respirators that address chemical, biological, radiological, and nuclear materials
   identified as inhalation hazards from possible terrorist events for use by the general working
   population.
4. NFPA 1951: Standard on Protective Ensemble for Urban Search and Rescue Operations
   Based on work begun in 1997, this standard answers the need for personal protective equipment
   for fire and emergency services personnel operating at technical rescue incidents involving
   building or structural collapse, vehicle accidents, confined spaces, trench cave-ins, scaffolding
   collapses, high angle climbing accidents, and similar incidents. The first edition of this standard
   was issued in July 2001.
5. NFPA 1981: Standard on Open-Circuit Self-Contained Breathing Apparatus for Fire and
   Emergency Services
   Based on work begun in 1975, this standard specifies the minimum requirements for the design,
   performance, testing, and certification of open-circuit Self-Contained Breathing Apparatus and
   combination open-circuit self-contained breathing apparatus and supplied air respirators for the
   respiratory protection of fire and emergency responders where unknown, immediately dangerous
   to life and health, or potentially immediately dangerous to life and health atmospheres exist. The
   first edition was issued in July 1981 and the current edition, issued in July 2002, is the fifth
   edition.

63
  “First Responders: Science & Technology Standards,” Science & Technology directorate, Department of Homeland
Security.

                         Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                           Responders

                                                            Page 48
Appendix D
Equipment Standards Adopted by S&T


6. NFPA 1991: Standard on Vapor-Protective Ensembles for Hazardous Materials Emergencies
   Based on work begun in 1986, this standard specifies the minimum requirements for the design,
   performance, testing, and certification of vapor-protective ensembles and individual protective
   elements for chemical vapor protection for fire and emergency service personnel. Additional
   optional criteria are provided for ensembles and individual protective elements that provide
   protection for chemical flash fire escape, liquefied gas, chemical and biological warfare agents,
   and chemical and biological terrorism incidents. The first edition was issued in January 1990
   and the current edition, issued in January 2000, is the third edition.
7. NFPA 1994: Standard on Protective Ensembles for Chemical/Biological Terrorism Incidents
   Based on work begun in 1998, this standard specifies the minimum requirements for the design,
   performance, testing, and certification of protective ensembles for fire and emergency services
   personnel operating at domestic terrorism incidents involving dual-use industrial chemicals,
   chemical terrorism agents, or biological terrorism agents. The intent is that the ensembles would
   be available in quantity, easily donned and used, and designed for single exposure use. The first
   edition of this standard was issued in July 2001.
8. NFPA 1999: Standard on Protective Clothing for Emergency Medical Operations
   Based on work begun in 1990, this standard specifies the minimum requirements for the design,
   performance, testing, and certification of new single-use and multiple-use emergency medical
   protective clothing, including garments, gloves, footwear, and face protection devices, used by
   fire and emergency services personnel performing patient care during emergency medical
   operations for protection against exposure to blood and body fluid-borne pathogens. The first
   edition was issued in July 1992 and the current edition, issued in January 2003, is the third
   edition.
Standards for Radiation and Nuclear Detection Equipment
1. ANSI N42.32: Performance Criteria for Alarming Personal Radiation Detectors for Homeland
   Security
   This standard describes design and performance criteria along with testing methods for
   evaluating the performance of instruments for homeland security that are pocket sized and
   carried on the body for the purpose of detecting the presence and magnitude of radiation. This
   standard specifies the performance criteria for radiation detection and measurement instruments
   that may be used in a variety of environmental conditions. The performance criteria contained in
   this standard are meant to provide a means for verifying the capability of these instruments to
   reliably detect significant changes above background levels of radiation and alert the user to
   these changes.
2. ANSI N42.33: Radiation Detection Instrumentation for Homeland Security
   This standard establishes design and performance criteria, test and calibration requirements, and
   operating instruction requirements for portable radiation detection instruments. These
   instruments are used for detection and measurement of photon emitting radioactive substances
   for the purposes of detection and interdiction and hazard assessment. The informative annexes
   of this standard provide reference information.

                        Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                          Responders

                                                           Page 49
Appendix D
Equipment Standards Adopted by S&T


3. ANSI N42.34: Performance Criteria for Hand-Held Instruments for the Detection and
   Identification of Radionuclides
   This standard addresses instruments that can be used for homeland security applications to detect
   and identify radionuclides, for gamma dose rate measurement, and for indication of neutron
   radiation. This standard specifies general requirements and test procedures, radiation response
   requirements, and electrical, mechanical, and environmental requirements. Successful
   completion of the tests described in this standard should not be construed as an ability to
   successfully identify all isotopes in all environments.
4. ANSI N42.35: Evaluation and Performance of Radiation Detection Portal Monitors for Use in
   Homeland Security
   This standard provides the testing and evaluation criteria for Radiation Detection Portal Monitors
   to detect radioactive materials that could be used for nuclear weapons or radiological dispersal
   devices. Portal monitors may be used in permanent installations, in temporary installations for
   short-duration detection needs, or as a transportable system. These systems are used to provide
   monitoring of people, packages and vehicles to detect illicit radioactive material transportation,
   or for emergency response to an event that releases radioactive material.




                        Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                          Responders

                                                           Page 50
Appendix E
Report Distribution




                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Under Secretary, Science and Technology
                      Under Secretary, Preparedness
                      Chief of Staff
                      Deputy Chief of Staff
                      Assistant Secretary, Public Affairs
                      Assistant Secretary, Policy
                      Assistant Secretary, Legislative and Intergovernmental Affairs
                      General Counsel
                      Executive Secretary
                      DHS Audit Liaison
                      S&T Audit Liaison
                      Preparedness Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS’ Program Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




                      Review of DHS’ Progress in Adopting and Enforcing Equipment Standards for First
                                                        Responders

                                                         Page 51
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector
General, Investigations Division – Hotline. The OIG seeks to protect the
identity of each writer and caller.
